IMPLEMENTATION OF CONTROLS OVER
  PAYMENTS TO MARITIME SECURITY
     PROGRAM CONTRACTORS
          Maritime Administration

        Report Number: FI-2009-001
       Date Issued: October 06, 2008
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Implementation of Controls               Date:    October 06, 2008
           Over Payments to Maritime Security Program
           Contractors, MARAD
           Report No. FI-2009-001

  From:    Rebecca C. Leng                                         Reply to
                                                                   Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Maritime Administrator

           This report provides the results of our review of the Maritime Administration’s
           (MARAD) implementation of controls over payments to Maritime Security
           Program (MSP) contractors. The objective of this audit was to determine whether
           payments to MSP contractors were reduced if the minimum operating
           requirements were not met.

           The Maritime Security Act of 1996 established MSP for fiscal years (FY) 1996
           through 2005, and the 2003 Act reauthorized the program for FYs 2006 through
           2015. The Acts require the Secretary of Transportation, in consultation with the
           Secretary of Defense, to establish a fleet of active, commercially viable, militarily
           useful, privately-owned, U.S.-flagged vessels. The fleet’s purpose is to aid with
           national security and defense requirements during times of war or other national
           emergency. MARAD manages MSP through its Office of Sealift Support.

           MSP is currently funded at $156 million per year, increasing to $186 million per
           year by 2012. Over the next seven years, these payments will total over $1 billion.
           For more information see Exhibit A.

           We conducted this performance audit in accordance with generally accepted
           government auditing standards. Those standards require that we plan and perform
           the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
           for our findings and conclusions based on our audit objectives. We believe that
           the evidence obtained provides a reasonable basis for our findings and conclusions
           based on our audit objectives. A detailed description of our audit scope and
           methodology is presented in Exhibit B.
                                                                                                                     2


RESULTS
From FY 2006 through July 2008 there were over 2,000 monthly payments
totaling $433 million, of which MARAD reduced 27 payments to MSP contractors
by a total of $3,455,095. Based on our control testing and review of the payment
reductions, we determined that payments to MSP contractors were properly
reduced when the minimum operating requirements were not met and that
MARAD’s controls are sufficient to ensure that payments to contractors are
processed in the correct amounts. However, we have two observations for
MARAD’s consideration that arose during the course of the audit regarding (1)
MARAD’s assurance that MSP vessels adhered to cargo preference limitations
and (2) MARAD’s exclusion of liquid cargo from its application of the cargo
preference limitation. Neither of these two issues affects our results because no
MSP vessels have carried the cargo in question.


MARAD Procedures Did Not Include Non-Agricultural Cargo In Its
Evaluation of the 7,500-Ton Limitation
Per the Maritime Security Act of 2003, vessels are not paid for days engaged in
transporting more than 7,500 tons of civilian bulk preference cargo 1 (this
limitation does not apply to military cargo). Civilian cargo can be agricultural or
non-agricultural. Currently, the MARAD Office of Sealift Support receives
certification from the Office of Cargo Preference for MSP vessels carrying
agricultural cargo only. Under current procedures, payments to MSP vessels
carrying non-agricultural cargo would not be reduced. According to MARAD, no
MSP vessels have carried civilian non-agricultural bulk cargo, but agreed that in
the future, MARAD could recognize cost savings if vessels are found
noncompliant.

During the audit we recommended that MARAD revise the policies and
procedures to include certification for MSP vessels that transport non-agricultural
as well as agricultural civilian bulk preference cargo. The Office of Sealift
Support agreed with our recommendation and has modified its policies and
procedures to include obtaining assurance that all civilian bulk preference cargo
has been considered when determining vessel compliance with MSP cargo
preference limitations. Further, the Office of Cargo Preference will include MSP
vessels carrying non-agricultural cargo in its monthly certification. Therefore, we
are not making formal recommendations in this report.



1
    Bulk cargo means cargo that is loaded and carried in bulk without mark or count (large unpackaged quantities).
    Cargo Preference is a MARAD-administered Federal program that requires a minimum percentage of Federal
    oceanborne goods be transported on U.S.-flagged vessels.
                                                                                        3


MARAD Procedures Do Not Consider Liquid Cargo In Its Evaluation
of the 7,500-Ton Limitation
While the Maritime Security Act of 2003 does not make a distinction between dry
and liquid cargo, MARAD’s Chief Counsel concluded that the 7,500-ton civilian
bulk preference cargo limitation does not apply to civilian liquid cargo.
MARAD’s Counsel did not provide sufficient reasoning why the weight limit
would apply to dry bulk cargo but not liquid. We consulted with OIG Counsel
who determined that, given the trade meaning and statutory usage of the term
“bulk” (which includes liquid cargo), and without a specific exclusion for civilian
liquid cargo, the plain language of the Act encompasses civilian liquid cargo when
applying the 7,500-ton limitation. It is important to note that according to the
Office of Cargo Preference, the only liquid bulk cargo currently being transported
is fuel to the Israeli military, which is a military operation and not subject to the
7,500-ton limitation.

OIG Counsel is working with MARAD’s Counsel to resolve the difference. As a
result, we are not making any recommendations on this issue.


ACTIONS REQUIRED
Actions taken and planned by MARAD are responsive to our concerns and a
formal reply to this report is not required.

We appreciate the courtesies and cooperation of MARAD Office of Sealift
Support representatives during this audit. If you have any questions concerning
this report, please call me at (202) 366-1407 or Earl Hedges, Program Director, at
(410) 962-1729.

                                         #
                                                                                                                            4




EXHIBIT A. BACKGROUND
MSP’s Maritime Security Fleet includes 60 privately-owned vessels. Current
funding levels allot a $2.6-million annual retainer per vessel (increases to $3.1
million by 2012); see Table 1.

                  Table 1. MSP Funding Levels Established by the
                           Maritime Security Act of 2003

           Fiscal Year            Funding Per Vessel                    Total Program Funding
                 2006                               $2.6 million                             $156 million
                 2007                               $2.6 million                             $156 million
                 2008                               $2.6 million                             $156 million
                 2009                               $2.9 million                             $174 million
                 2010                               $2.9 million                             $174 million
                 2011                               $2.9 million                             $174 million
                 2012                               $3.1 million                             $186 million
                 2013                               $3.1 million                             $186 million
                 2014                               $3.1 million                             $186 million
                 2015                               $3.1 million                             $186 million
                                  Total Program Funding                                       $1,734,000

Each vessel operates commercially in one of two ways: between domestic and
international ports or between international ports. Each vessel is obligated under a
renewable 1-year operating agreement and is required to maintain a U.S. flag
presence in international shipping channels.            Vessels must comply with
operational and program requirements as specified in the operating agreement.
For example, each month MSP analysts evaluate vessel operators’ payment
requests for eligibility based on the following criteria:

    1. Did the vessel operate fewer than 320 days in foreign trade during the year? 2
    2. Did the vessel carry more than 7,500 tons of civilian bulk preference cargo at
       any time during the year?
    3. Was the vessel under time-charter 3 to another Federal agency?


2
  MSP analysts reduce monthly payments for non-operating or drydock days during the month. At year-end, if the 320-
   operating-day requirement is met, analysts make a supplemental payment to compensate for the previous reductions.
3
  Time charter is hiring of a vessel for a specific amount of time; the owner still manages the vessel, but the charterer
   selects the ports and directs the vessel where to go.


Exhibit A. Background
                                                                                      5


If the answer to any of the above questions is “yes,” then the vessel is considered
noncompliant and the $2.6-million annual retainer is discounted accordingly,
based on the number of days the vessel did not comply.




Exhibit A. Background
                                                                                                                 6




     EXHIBIT B. SCOPE AND METHODOLOGY
     Our audit objective was to determine if payments to MSP contractors were
     reduced if the minimum operating requirements were not met. Our review
     focused on vessels entering the MSP from FY 2006 through
     FY 2008 (74 total), as well as payments made to MSP contractors during the same
     time frame (totaling $433 million as of July 22, 2008).

     We accomplished our objective by (1) meeting with MSP officials to gain an
     understanding of internal controls, (2) performing tests of controls through
     judgmental sampling, (3) testing the validity of the Lloyds of London Marine
     Intelligence Unit database (used to verify vessel operating status), and (4)
     performing follow-up of prior audit recommendations through inquiry,
     observation, and obtaining supporting documentation. As part of our testing, we
     reviewed the 27 payment reductions (see Table 2) to determine if the reductions
     were justified.


                           Table 2. Monthly Payment Reductions,
                           October 1, 2005 through July 22, 2008
Fiscal Year                  Number of Temporary Reductions Amount of Temporary Reductions
2006                                                     11                      $1,131,721
2007                                                      2                         $50,004
2008 as of 7/22/08a                                      11                      $1,241,467
  Total                                                  24                      $2,423,192

Fiscal Year                  Number of Permanent Reductions Amount of Permanent Reductions
2006                                                      1                        $ 72,373
2007                                                      2                        $959,530
2008 as of 7/22/08a                                     N/A                             N/A
Total                                                     3                      $1,031,903
     a
         The permanence of these payment reductions will be determined by MARAD after September 30, 2008.

     Temporary – If non-operating or drydock days are recorded during the month, payment is reduced. At
     year-end, MARAD determines if annual 320-days-in-operation requirement was met and, if so, issues a
     supplemental payment.

     Permanent – If vessel was under time-charter, transported excess cargo preference, or did not meet annual
     320-days-in-operation requirement, no supplemental payment is made.




     Exhibit B. Scope and Methodology
                                                                                    7


Our testing took place during June and July 2008 at MARAD Headquarters and
local ports on the east coast of the United States. We conducted this performance
audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit B. Scope and Methodology
                                                                8




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
  Name                                 Title

  Earl Hedges                          Program Director

  Ingrid Harris                        Project Manager

  LaKarla Lindsay                      Senior Auditor

  Stephen Berkeridge                   Auditor

  Allison Sturges                      Analyst

  Fritz Swartzbaugh                    Associate Counsel

  Michael Fruitman                     Communications Adviser




Exhibit C. Major Contributors to This Report
